Office of Inspector General Update of the Top Management Challenges
                   for the Department of the Interior


1. Financial Management
Sound financial management is critical to providing accurate financial information,
managing for results, and ensuring operational integrity. The independent, certified
public accounting firm of KPMG LLP, under contract with the OIG, rendered an
unqualified opinion on the consolidated financial statements of DOI for fiscal year 2005.
However, KPMG also identified 2 material weaknesses and 19 critical but less significant
control weaknesses (reportable conditions).

The Department has several initiatives aimed at improving financial management
including the Financial and Business Management System (FBMS) and Performance and
Budget Integration. Although these initiatives should upgrade financial management in
the future, they are placing increased demands on already stretched financial resources.

Financial and Business Management System
The implementation of the FBMS continues to be a major management challenge in DOI.
FBMS will replace a variety of outdated, stand-alone, mainframe-based systems that are
costly to operate and difficult to secure. The current systems do not provide timely
financial and performance information and do not comply with financial system
standards. About 160 systems will be affected by this implementation.

The Department began implementing FBMS in FY2005 and planned to have the System
fully implemented by the end of FY2008. However, on September 29, 2005, DOI
removed BearingPoint, its contractor, from the project. DOI then awarded a new contract
to IBM Consulting Services on February 28, 2006, to replace BearingPoint as the system
integrator and revised the implementation date from FY2008 to FY2011.
Budget and Performance Integration
Better budget and performance integration is essential to results-oriented management
and efficient allocation of scarce resources among competing needs. The variety and
number of programs within DOI makes budget and performance integration particularly
difficult.

From 2002 to 2005, the Office of Management and Budget (OMB) assessed 63 DOI
programs, reflecting over $9 billion dollars in annual budget authority. Of these, only 5
were rated “Effective,” and OMB was unable to determine whether 23 of these programs,
reflecting nearly half of the assessed spending, were performing satisfactorily due to the
lack of reliable performance information. Thirty-eight percent of the DOI program
ratings published in 2006 were "Results Not Demonstrated." DOI needs to continue to
focus on developing useful performance measures.




                                            1
2. Information Technology
Although DOI’s Information Technology (IT) Security Program has seen increased
management awareness, involvement, focus, and funding since the enactment of the Federal
Information Security Management Act (FISMA) in 2002, significant weaknesses remain in
the DOI IT Security Program.

Our 2006 evaluation of DOI’s computer network, the Enterprise Services Network (ESN),
found that the foresight and planning devoted to ESN network security demonstrate a solid
understanding of security best-practices. However, application security, a bureau
responsibility, continues to present attackers with targets of opportunity. The ESN has no
control over these applications or the networks that make them accessible to the public.
Until this area is addressed, ESN cannot provide the level of security promised by the Chief
Information Officer.

We conducted external penetration tests of information systems managed by the Minerals
Management Service (MMS), U.S. Fish and Wildlife Service (FWS), National Business
Center (NBC), and Office of Surface Mining (OSM). While ESN implementation has
improved DOI IT security, we were still able to penetrate ESN networks in 50 percent of
our tests. ESN security features appear ineffective, particularly for bureau applications
accessible through the Internet.

Our evaluation of DOI’s Plan of Action and Milestone (POAM) process — which helps
plan, implement, evaluate, and document actions needed to address deficiencies in
information security policies, procedures, and practices — found that the POAM process
still has a number of areas needing improvement. For example, the Office of the Chief
Information Officer has yet to provide an automated POAM solution for DOI.


3. Health, Safety, and Emergency Management
Annually, DOI has over 475 million visits to national parks, Bureau of Land
Management (BLM) recreational sites, wildlife refuges, and Bureau of Reclamation
(BOR) recreation sites. DOI must protect hundreds of millions of visitors, employees,
and volunteers, thousands of facilities, and millions of acres of property from both
internal and external threats. The physical isolation of some DOI lands and facilities
increases their vulnerability to threats and inhibits DOI’s response time. DOI’s Office of
Law Enforcement, Security, and Emergency Management continues to struggle with its
role involving policy and oversight of bureau law enforcement, security, and emergency
management programs.

In FY2006, we examined DOI and bureau progress in implementing 25 Secretary
Directives issued in 2002 for law enforcement reform, including creating senior-level law
enforcement and security positions, implementing a formal budget review process, and
developing Department-wide law enforcement, security, and emergency management
policies. Our review revealed that after nearly 4 years, the Department and bureaus have


                                            2
only fully implemented 9 of the 25 directives. In addition, the bureaus have not
sufficiently addressed accountability issues stemming from non-law enforcement
managers supervising law enforcement positions.


4. Maintenance of Facilities
DOI owns, builds, purchases, and contracts services for assets such as roads, bridges,
schools, office buildings, dams, irrigation systems, and reservoirs. Repair and
maintenance of some of these assets have been postponed until future years due to
budgetary constraints. DOI refers to these unfunded repair and maintenance needs as
deferred maintenance. According to the January 2003 Government Accountability Office
(GAO) report, “Major Management Challenges and Program Risks, Department of the
Interior,” DOI needs to more aggressively address the deferred maintenance backlog.
The report states that the repair and maintenance on these assets has been postponed for
years and that the deterioration of facilities can adversely impact public health and safety,
reduce employee morale and productivity, and increase the need for costly major repairs
or early replacement of structures and equipment.

The deferred maintenance backlog is a continuing challenge for the Department.
According to the FY2005 “Annual Report on Performance and Accountability,” exact
estimates of deferred maintenance costs are difficult to determine due to the scope,
nature, and variety of assets entrusted to the Department, as well as the nature of deferred
maintenance itself. Using the Department’s current approach for estimating the backlog,
the amount needed to correct deferred maintenance for property, plant, and equipment
ranges from approximately $10.1 to $18 billion. In FY2004, estimates for DOI’s
deferred maintenance were between $8.9 and $15.3 billion.

An OIG audit of safety issues related to the deferred maintenance backlog is currently
underway.


5. Responsibility to Indians and Insular Areas

Management problems persist in programs for Indians and island communities. DOI
provides more than $750 million annually for basic tribal services, including tribal courts,
social services, and natural resource management. DOI is responsible for administering
the U.S. Government’s trust responsibilities to Indian tribes and individual Indians and
has various responsibilities to seven island communities — four U.S. territories and three
sovereign island nations.

Tribal entities’ financial compliance with funding agreements should be ensured through
the single audit process; however, 95 tribal entities (including the tribal governments and
tribal schools) submitted delinquent single audit reports during FY2006. These
delinquent reports comprise over half of the 171 tribal entities reviewed.



                                             3
Serious problems persist at schools and detention facilities operated and funded by the
Bureau of Indian Affairs (BIA). According to the November 2005 Investigative Report
on the Chemawa Indian School Detention Facility, the lack of supervision and training on
the part of BIA education administrators and Chemawa Indian School staff contributed to
the tragic death of a 16-year-old girl at the Chemawa Indian Boarding School. During an
October 2005 investigation of a suicide at the Blackfeet jail in Browning, MT, we found
a similar lack of supervision, staffing and training. We further found that BIA detention
managers had done little, if anything, to alleviate ongoing problems at the site.

The Insular Area governments have serious long-standing financial and program
management deficiencies. For example, in FY2006, we confirmed that the Development
Bank of American Samoa (Bank) has mismanaged its loan portfolio so significantly that
it is in danger of negating the economic goals for which it was established, namely,
making economic development loans in the islands available to those who might
otherwise be ineligible. The Bank’s management deficiencies are long standing, dating
back more than 25 years, and have been documented in numerous reports.

A FY2006 inspection of the Federated States of Micronesia’s (FSM) Compact Trust Fund
(Fund) revealed that oversight from the United States, as well as from FSM Trust Fund
Committee members, has failed to ensure that key positions are filled in a timely manner,
annual financial and performance reports are prepared, and resources are effectively
invested. These conclusions were supported by an FSM Finance and Budget Resolution
(November 16, 2005) stating that the Fund had not been fully implemented, realized
expected returns, or provided copies of its required financial and performance reports to
its national and state governments, even though they had deposited their respective shares
into the Fund.


6. Resource Protection and Restoration
DOI resource managers face the challenging task of balancing competing interests for the
use of the Nation’s natural resources. Federal lands account for approximately 30 percent
of energy produced in the United States. DOI has jurisdiction over 1.76 billion acres of
the Outer Continental Shelf, manages about one-fifth of the land area of the United
States, and administers 700 million acres of subsurface mineral estate throughout the
Nation. In addition, DOI protects thousands of wetlands, aquatic parcels, and native
plant and animal species, including more than 1,300 with special status under the
Endangered Species Act.

In 2003, GAO identified ecosystem restoration efforts as major performance and
accountability challenges for DOI, specifically in the areas of 1) reducing wildland fire
threats to communities and resources; 2) restoring the South Florida ecosystem; and 3)
controlling and eradicating invasive species.

Approximately 100,000 wildfires occur yearly on federal and state lands. Some are
catastrophic, such as the 2003 Southern California fires that burned about 750,000 acres,


                                             4
destroyed over 3,600 homes, and killed at least 20 people. In recent years, the need to
reduce the risk of catastrophic wildfires has taken on new urgency, as growing numbers
of people choose to live in wildland urban interface areas adjacent to rangelands and
forests. As identified in our April 2006 report, “Hazardous Fuels Reduction Program,
Department of the Interior,” DOI has made progress in implementing its Hazardous Fuels
Reduction (HFR) Program to help reduce the risk of catastrophic wildfires. DOI’s land
management bureaus have established the broad framework and partnerships essential to
address wildland fires, including implementation of HFR projects, which has also been
reported by GAO in recent reports. However, DOI could make improvements in three
key performance areas — measuring risk reduction, contracting for hazardous fuels
reduction projects, and coordinating with the U.S. Forest Service — to advance the
effectiveness of the Program.

While some progress in restoring the South Florida ecosystem has been made, DOI has
not participated effectively in the Modified Water Deliveries Project to Everglades
National Park. Our March 2006 report, “Modified Water Deliveries to Everglades
National Park,” found that DOI’s ineffective participation contributed to project delays
and cost increases. The project is currently 8 years behind schedule and has a projected
price tag approaching $400 million — nearly 5 times its original estimate.


7. Revenue Collections
In FY2005, mineral lease revenues collected by DOI on behalf of the U.S. Government
exceeded $12 billion. In addition, DOI’s earned revenue from activities such as grazing,
timber, and lands sales was over $6 billion.

The highest revenue collector in DOI is, by far, the MMS. Since its inception in 1982,
MMS has collected and distributed, on average, over $9.9 billion annually from federal
offshore leases and from onshore federal and Indian leases. Historically, both OIG and
MMS have identified significant mineral revenue underpayments from lessees. Due to
the amount of revenue collected by MMS and the complexity of royalty payments from
lessees, we believe that there is a continuing significant potential for underpayments. In
addition, MMS has received major news coverage over the past year due to the lack of
price thresholds in the 1998 and 1998 leases, which could result in billions of dollars of
lost revenue. The results of an OIG audit of MMS’s Compliance Review Process have
been provided to the Department for comment.


8. Procurement, Contracts, and Grants
Procurement, contracts, and grants have historically been areas subject to fraud and waste
government-wide, and managing them is a continuing challenge. DOI spends substantial
resources each year in contracting for goods and services and in providing federal
assistance to states and Indian organizations. Recent audits at DOI and other federal




                                             5
agencies highlighted concerns with interagency procurement services performed through
fee-for-service organizations.

Procurement
Four DOI entities operate self-sustaining, business-like, fee-for-service operations. They
are GovWorks, NBC, BOR (Technical Service Center), and the U.S. Geological Survey
(USGS) (working capital fund). These organizations provide administrative and
technical services to DOI, as well as to other federal agencies. They reported combined
transactions of approximately $3 billion in FY2005.

Our March 2006 evaluation, “Fee-For-Service Organizations, U.S. Department of the
Interior,” found that the benefits of these fee-for-service activities may not outweigh
risks. OIG auditors attempted to identify and quantify the benefits related to GovWorks
and NBC, DOI’s two major fee-for-service organizations. Managers of these
organizations claimed monetary and nonmonetary benefits, including 1) use of
approximately $22 million in GovWorks income to fund DOI initiatives; 2) reduction in
DOI’s administrative costs due to lower indirect costs and achievement of economies of
scale; and 3) development of expertise to assist DOI with its procurements.

Except for the $22 million transferred from GovWorks to DOI to fund its initiatives,
management provided no documentation that allowed auditors to quantify and
substantiate the monetary benefits of fee-for-service operations. Further, auditors were
unable to determine that the nonmonetary benefits cited by GovWorks significantly
affected DOI operations. In the absence of significant, quantifiable benefits, it is
questionable whether the overall advantages of these activities outweigh the risks brought
to management’s attention through previous and ongoing audits.

Grants Management
Audits of grants that the FWS awarded to eight states revealed a potential savings of $1.6
million. The grants finance up to 75 percent of state-sponsored projects, such as
developing sites for boating access and acquiring and managing natural habitats.
Examples of potential savings include at least $495,770 that West Virginia did not report
as proceeds from the disposal of real property acquired with federal assistance funds;
$553,977 of questionable costs that Illinois claimed for unauthorized activities and
unsupported charges for labor and inkind services; and $325,445 of unreported user fees
collected by Michigan at shooting ranges.

There have been several immediate and positive results from our audit report Framework
Needed to Promote Accountability in Interior’s Grants Management. DOI acted to
improve grants management oversight by implementing policies requiring functional
reviews of the award and administration of grants at all bureaus. DOI has also made
significant progress in requiring the bureaus to use Grants.gov, which has streamlined the
application process, to list all grant opportunities for the American public.




                                            6
